  ASSETS FORFEITURE FUND 

                 AND

 SEIZED ASSET DEPOSIT FUND

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2012 

       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 13-07 

             January 2013

               ASSETS FORFEITURE FUND

                         AND

              SEIZED ASSET DEPOSIT FUND

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) for the
fiscal years (FY) ended September 30, 2012, and September 30, 2011.
Under the direction of the Office of the Inspector General (OIG), KPMG LLP
performed the AFF/SADF’s audit in accordance with auditing standards
generally accepted in the United States of America. The audit resulted in an
unqualified opinion on the FY 2012 financial statements. An unqualified
opinion means that the financial statements present fairly, in all material
respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. For FY 2011,
the AFF/SADF also received an unqualified opinion on its financial statements
(OIG Report No. 12-12).

      KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2012, the auditors
did not identify any significant deficiencies in the Independent Auditors’
Report on Internal Control over Financial Reporting.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, KPMG LLP’s tests disclosed no instances in which the
AFF/SADF’s financial management systems did not substantially comply with
the Federal Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on the AFF/SADF’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether the
AFF/SADF’s financial management systems substantially complied with the




                                     -i-
Federal Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 5, 2012, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with auditing standards
generally accepted in the United States of America.




                                   - ii -
                   ASSETS FORFEITURE FUND

                             AND

                  SEIZED ASSET DEPOSIT FUND

                 ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2012


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 17


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 19


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 21


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 25


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 26


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 27


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 28


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 29


OTHER ACCOMPANYING INFORMATION


  COMBINED SCHEDULE OF SPENDING ................................................ 65

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.




                -2-
                              U.S. Department of Justice

                Assets Forfeiture Fund and Seized Asset Deposit Fund

                       Management’s Discussion and Analysis

                                                         (Unaudited)

MISSION

The primary mission of the Department of Justice (DOJ or the Department) Asset Forfeiture Program
(AFP or the Program) is to prevent and reduce crime by disrupting, damaging, and dismantling
criminal organizations through the use of the forfeiture sanction. This is accomplished by means of
depriving drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for the administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes. The Assets Forfeiture Fund
(AFF or the Fund) and Seized Asset Deposit Fund (SADF) together comprise a single financial
reporting entity of the DOJ, which includes the specified funds, property seized for forfeiture, and the
transactions and program activities of DOJ forfeiture program components and other participating
agencies as described more fully herein.

ORGANIZATION STRUCTURE

Table 1 below displays the primary functional activities of the participating agencies in the AFP. For
the full names of the participating agencies, see Footnote 1. These agencies investigate or prosecute
criminal activity under statutes, such as the Comprehensive Drug Abuse Prevention and Control Act of
1970, the Racketeer Influenced and Corrupt Organizations statute, the Controlled Substances Act, and
the Money Laundering Control Act, or provide administrative support services to the Program.
                                                                                                    1
                              Table 1. Asset Forfeiture Program Participants by Function

  Function      AFMLS      OCDETF        AFMS      ATF      DCIS     DEA     DS    EOUSA       FBI      FDA    USDA     USMS       USPS
Investigation                X                      X        X        X      X                  X        X      X                   X
  Litigation       X                                                                   X
 Custody of
   Assets                                            X                 X                        X                         X
Management         X                       X


FINANCIAL STRUCTURE
The AFP is comprised of two funds, which are under the management control of the Asset Forfeiture
Management Staff (AFMS). The AFF is a special fund listed in the U.S. Treasury Federal Account
Symbols and Titles Book as 15X5042. The SADF is a deposit fund listed as 15X6874.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be the repository of the
proceeds of forfeitures under any law enforced and administered by the DOJ (28 U.S.C. § 524(c)). All


1
  The participants include the Asset Forfeiture and Money Laundering Section, Criminal Division (AFMLS); Organized Crime Drug
Enforcement Task Force (OCDETF); Asset Forfeiture Management Staff, Justice Management Division (AFMS); Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Defense Criminal Investigative Service (DCIS); Drug Enforcement Administration (DEA);
Bureau of Diplomatic Security, Department of State (DS); Executive Office for United States Attorneys (EOUSA); Federal Bureau of
Investigation (FBI); Food and Drug Administration (FDA), United States Department of Agriculture (USDA); United States Marshals
Service (USMS); and United States Postal Service (USPS).




                                                            -3-
amounts earned from the investment of AFF and SADF balances are deposited into the AFF. The
interest earned on the AFF balances is the property of the United States Government.

Monies deposited in the AFF are used to cover operating costs of the Program. These costs include,
for example, asset management and disposition expenses; equitable sharing payments to participating
state, local, and foreign governments; Automatic Data Processing (ADP) equipment expenses; contract
service payments; and payments of innocent third party claims. All salaries and employment related
expenses, liabilities, and imputed financing costs of DOJ AFP participants are reported in the financial
statements of the participants’ reporting entities. Salaries and employment related costs of
administrative personnel of the AFMS, AFMLS, and USMS are charged to the AFP as program
operating costs. The AFP’s operating costs do not include the costs of any participant salaries incurred
while conducting investigations leading to seizure and forfeiture.

While the AFF is the repository for forfeited currency and proceeds arising from the sale of forfeited
property and also serves as the operating fund for specified program expenditures, the SADF serves as
a repository for seized currency and specified deposits.

The SADF was created administratively by the DOJ to ensure control over monies seized by agencies
participating in the DOJ’s AFP. Public Law (P.L.) 102-140, dated October 28, 1991, provided
authority for the investment of SADF balances pending adjudication. Generally, monies in the SADF
are not the property of the Government. The SADF holds seized cash, the proceeds of any
pre-forfeiture sale of seized property, and forfeited cash not yet transferred to the AFF. Operating
businesses under seizure also may be managed through the SADF. Because most funds held in the
SADF are not Government property, monies in the SADF cannot be expended. SADF balances are
transferred to the AFF upon the successful conclusion of a forfeiture action.

The Fund receives most of its revenue from the forfeiture of cash and other monetary assets and,
secondly, from the sale of forfeited property. AFP participants may receive annual allocations by
suballotment advice or reimbursement agreement. The Fund’s first priority is to cover the business or
operational expenses of the AFP. After it is determined that there will be sufficient receipts,
allocations may be made for investigative expenses, such as awards for information, purchase of
evidence, and equipping of conveyances, and also discretionary expenses, such as storage, protection
and destruction of controlled substances.

Limitations on the Use of the Assets Forfeiture Fund

The AFF is defined by statute. Authorities and limitations governing use of the AFF are specified in
28 U.S.C. § 524(c). In addition, use of the AFF is controlled by laws and regulations governing the use
of public monies and appropriations (e.g., 31 U.S.C. § 1341-1353 and 1501-1558, Office of
Management and Budget (OMB) Circulars, and provisions of annual appropriation acts). The AFF is
further controlled by the Attorney General's Guidelines on Seized and Forfeited Property (July 1990),
policy memoranda, and statutory interpretations issued by appropriate authorities. Unless otherwise
provided by law, restrictions on the use of AFF monies retain those limitations after any monies are
made available to a recipient agency. Moreover, monies are available for use only to the extent that
receipts are available in the AFF.




                                                -4-
In Fiscal Year (FY) 2012 and 2011, monies were available under a permanent indefinite appropriation
to finance the following:

   (1)	    The operational costs of the forfeiture program, including handling and disposal of seized
           and forfeited assets, and the execution of legal forfeiture proceedings to perfect the title of
           the United States in that property.

   (2)	    The payment of innocent third party claims.

   (3)	    The payment of equitable shares to participating foreign governments and state and local
           law enforcement agencies.

   (4)	    The costs of ADP equipment and ADP support for the Program.

   (5)	    Contract services in support of the Program.

   (6)	    Training and printing associated with the Program.

   (7)	    Other management expenses of the Program.

   (8)	    Awards for information leading to forfeiture.

   (9)	    Joint Federal, state, and local law enforcement operations.

   (10)	   Investigative expenses leading to seizure.

Resources of the AFF are intended to cover the business expenses of the AFP, with any excess
balances available for discretionary purposes, including investigative expenses subject to
appropriations limitation (definite authority). Excess unobligated balances identified at the end of a
fiscal year may be declared a "Super Surplus" balance. Super Surplus balances may be allocated at the
discretion of the Attorney General for ". . . any Federal law enforcement, litigative/prosecutive, and
correctional activities, or any other authorized purpose of the DOJ" pursuant to 28 U.S.C. § 524(c)(8)(E).

Holding and Accounting for Seized and Forfeited Property
The USMS has primary responsibility for holding and maintaining real and tangible personal property
seized by participating agencies for disposition. Seized property can be either returned to the owner or
forfeited to the Government. Forfeited property is subsequently sold, placed into official use,
destroyed, or transferred to another agency. Seized and forfeited property is not considered inventory
held for resale in the normal course of business.




                                                 -5-
ANALYSIS OF FINANCIAL STATEMENTS
The following are brief explanations for the AFF/SADF financial results, position, and condition
conveyed in the principal financial statements. In FY 2012, five major fraud cases resulted in
extraordinary forfeiture income of $3,311.9 million compared to the ten FY 2011 fraud cases that
resulted in extraordinary forfeiture income of $733.6 million. The term extraordinary is considered
nonrecurring forfeiture income greater than $25 million. The AFF/SADF financial results reflect the
impact of the large cases on forfeiture income and accrued liabilities in the fund balance with Treasury,
accounts payable, forfeiture revenue, and budgetary resources.

Consolidated Balance Sheets

Total assets, which present as of a specific time the amounts of future economic benefits owned or
managed by the AFF/SADF, decreased in FY 2012 to $5,970.3 million from $6,869.6 million in
FY 2011, a decrease of 13.1 percent. If seized assets, which are not yet owned by the government, are
not included, the adjusted assets of the Fund increased to $4,433.8 million in FY 2012 from $2,852.8
million in FY 2011, an increase of 55.4 percent. This is attributable to a $2,206.2 million asset from
Jeffery Picower which is related to the Bernard Madoff financial fraud case that was transferred from
the SADF into the AFF in FY 2012.

Total liabilities of the funds decreased to $4,349.9 million in FY 2012 from $5,109.1 million in
FY 2011, a decrease of 14.9 percent. The majority of the change, $759.2 million, in liabilities is due to
the decrease in seized cash and monetary instruments; the bulk of it is from the Picower asset. This
represents money that has been received, but not recognized as earned. In FY 2012 the Picower asset
was earned and therefore is no longer classified as seized cash. Current assets were more than current
liabilities by a ratio of 1.58 to 1, which reflects a decrease of 1.04 from FY 2011. This ratio continues
to indicate that the AFF will be able to meet its obligations when due. In the calculation of the ratio of
current assets to current liabilities, current assets consist of total assets less SADF net investments,
plus seized cash deposited, seized monetary instruments (see Note 11), and less property, plant and
equipment while current liabilities include the total of liabilities covered by budgetary resources,
except for total seized cash and monetary instruments.

Consolidated Statements of Net Cost

Net cost of operations is related to DOJ’s Strategic Goal 2: Prevent Crime, Protect the Rights of the
American People, and Enforce Federal Law. Net cost of operations increased to $4,308.8 million in
FY 2012 from $1,663.9 million in FY 2011, an increase of 159.0 percent. The increase is primarily
attributable to the Picower asset being transferred to the AFF. To the extent that financing sources do
not cover net costs, AFF’s carry forward balances are used to support program expenses. The carry
forward balances consist primarily of special case funds and monies for operational requirements.

Consolidated Statements of Changes in Net Position

Net position, an indicator of the Fund’s future capability to support ongoing operations, decreased to
$1,620.4 million in FY 2012 from $1,760.5 million in FY 2011, a decrease of 8.0 percent. The Fund’s
financing sources consist primarily of forfeited cash and other monetary assets and, secondly, sale
proceeds of forfeited property. Additional factors that consume resources and influence the AFF net
position to a lesser extent include the short-term interest rates that affect revenue from investments in




                                                 -6-
Government securities; the nature of seized non-cash properties that must be converted into cash, and
the transfers of properties placed into official use.

The Program invests cash balances from both the AFF and SADF in Government securities. Earnings
over a five-year period are presented in Figure 2. Investment interest earnings (i.e., nonexchange
revenue) realized for the fiscal year ended September 30, 2012, totaled $3.3 million, which is $1.3
million less than the $4.6 million in investment interest earnings for the fiscal year ended September
30, 2011. FY 2012 investment interest earned is $1.7 million less than the $5.0 million estimated for
FY 2013 in the Budget of the United States Government, Fiscal Year 2013--Appendix. The
decreased earnings are due primarily to the decrease in interest rates for one-month, three-month, and
six-month Treasury bills. Amounts available for investment are difficult to predict because many
factors influence the balance. For example, one significant factor is the level of third party payments
and equitable sharing distributions. Uncertainties in the dollar amount and timing of these
disbursements are difficult to predict. Additional factors include the time to process equitable sharing
requests and appeals of forfeiture judgments.

Combined Statements of Budgetary Resources

Total budgetary resources increased to $5,290.4 million in FY 2012 from $2,708.9 million in FY 2011, 

a 95.3 percent increase. The net increase is attributed to an increase in deposits into the AFF. 

Nonrecurring forfeiture income increased to $3,311.9 million in FY 2012 from $733.6 million in

FY 2011. From FY 2012 activity, approximately $3,003.5 million of forfeiture income will be

disbursed to the victims of the fraud cases. As a result of the cases, the net outlays increased to 

$2,670.7 million in FY 2012 from $1,410.7 million in FY 2011, an increase of 89.3 percent.


The total obligations incurred in FY 2012 were $4,528.4 million, an increase of $2,908.2 million

compared to $1,620.2 million incurred in FY 2011. The FY 2012 obligations increased relative to

 FY 2011 due to nonrecurring case activity in FY 2012. 


The AFF’s unobligated balance was $762 million as of September 30, 2012, a decrease of 30 percent

as compared to $1,088.7 million as of September 30, 2011. The unobligated balance carried forward is

retained in the AFF to ensure the availability of sufficient monies in the upcoming fiscal year for

authorized purposes. These purposes include program operating expenses as well as pending

extraordinary distributions, pending innocent third party payments, uncommitted Super Surplus

authority, and other items. For example, as of September 30, 2012, pending extraordinary equitable

sharing distributions totaled an estimated $505.5 million, which is comprised of 623 assets with values

greater than $1 million. 





                                                -7-
                    Table 2. Source of Assets Forfeiture Fund Resources
                                     (Dollars in Thousands)


                                                                                       Change
                       Source                            FY 2012         FY 2011         %
 Exchange Revenue                                            $10,585          $9,513      11.3%
 Budgetary Financing Sources
   Nonexchange Revenues                                       $3,327          $4,596     (27.6%)
   Donations and Forfeitures of Cash or Cash
 Equivalents                                             $4,194,465     $1,580,584       165.4%
 Other Financing Sources
    Donations and Forfeitures of Property                   $120,245      $157,381      (23.6%)
    Transfers-In/Out Without Reimbursement                ($149,908)       ($6,120)    2,349.5%
    Imputed Financing from Costs Absorbed by
 Others                                                         $536           $602      (11.0%)
 Total                                                   $4,179,250     $1,746,556       139.3%


                    Table 3. How Assets Forfeiture Fund Resources are Spent
                                    (Dollars in Thousands)


                                                                                       Change
                Strategic Goal (SG)                     FY 2012         FY 2011
                                                                                         %
 SG 2: Prevent Crime, Protect the Rights of the
 American People, and Enforce Federal Law
                                  Total Gross Cost       $4,319,407    $1,673,412
                       Less: Total Earned Revenue         ($10,585)      ($9,513)
                      Total Net Cost of Operations       $4,308,822    $1,663,899       159.0%


2012 Financial Highlights

As indicated in Table 3, in FY 2012 the AFF supported Strategic Goal 2 of the Attorney General’s
Strategic Plan for Fiscal Years 2012 – 2016, which includes Strategic Objective 2.2 - Prevent and
Intervene in Crimes Against Vulnerable Populations; Uphold the Rights of, and Improve Services to,
America’s Crime Victims.

The AFF has no costs associated with counterterrorism or homeland security.

Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law. Included are expenditures made for case, program, investigative, and other authorized
support costs incurred by AFP participants to operate the activities of the Program. The Fund’s
resources cover the costs of seizing, evaluating, inventorying, maintaining, protecting, advertising,
forfeiting, and disposing of property seized for forfeiture. These costs are necessary to support the
AFP and fluctuate in direct relation to the forfeiture activity levels of the investigative,



                                               -8-
prosecutive, litigative, and administrative participants of the Fund. For the fiscal year ended
September 30, 2012, $4,308.8 million was expended (net of earned revenue) while $1,663.9 million
was expended (net of earned revenue) for the fiscal year ended September 30, 2011. Goal 2 net costs
are presented in Figure 1; financing sources are presented in Figure 2.




                                              -9-
PERFORMANCE INFORMATION
Data Reliability and Validity

The AFP views data reliability and validity as critically important in the planning and assessment of its
performance. The Justice Management Division (JMD) maintains standards and practices to ensure
that data reported meets the OMB standards for data reliability that are presented in OMB Circular No.
A-11, Preparation, Submission and Execution of the Budget, Section 230.5.

The financial management of the Fund is supported by two JMD financial systems: Financial
Management Information System 2 (FMIS2) and Unified Financial Management System (UFMS).
FMIS2 is a computerized, general-purpose accounting and reporting system that supports the financial
operations of the DOJ. UFMS is a financial system to standardize business processes across all DOJ
components, except for Federal Prison Industries, providing secure, accurate, and timely financial data.
The AFMS was the Department’s pilot implementation in FY 2008. The implementation was limited
to only certain specific transactions such as reimbursable agreements with non-DOJ participants of the
AFP. Five components of the Department are scheduled to complete their UFMS implementations by
the end of FY 2014. The schedules for the remaining Departmental components have not yet been
determined. The FMIS2 remains the official accounting system of the AFP. The USMS’ Standardized
Tracking and Reporting System (STARS) data is uploaded into FMIS2. STARS is the USMS
Headquarters and field offices’ financial management system. The USMS will go live on UFMS
concurrently with the AFP in FY 2013. The Consolidated Asset Tracking System (CATS) is an
integrated system that provides services to the asset forfeiture community and serves as a subsidiary
system for the financial accounting and reporting of seized and forfeited property. Enhancements and
refinements are being made to some of these systems that will improve the usefulness of the data
supporting the activities of the AFF and SADF.

FY 2012 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law.
100% of the AFF’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives: The primary purpose of the AFP is to deter crime by disrupting,
damaging, and dismantling criminal organizations through the use of forfeiture sanction. Depriving
white collar criminals, drug traffickers, racketeers, and other criminal syndicates of their ill-gotten
proceeds and instrumentalities of their trade not only achieves important law enforcement objectives
but also provides an effective means of recovering funds for victim restitution.

Among other important benefits of an aggressive and well-managed forfeiture program is the
application of surplus revenues to law enforcement objectives, such as enhancing cooperation among
Federal, state, and local law enforcement agencies through the equitable sharing of Federal forfeiture
proceeds. Pursuant to 21 U.S.C. § Sec. 881(e)(1) and 19 U.S.C. § Sec. 1616a, as made applicable by
21 U.S.C. § Sec. 881(d) and other statutes, the Attorney General has the authority to equitably transfer
forfeited property and cash to state and local agencies that directly participate in the law enforcement




                                                - 10 -
effort leading to the seizure and forfeiture of property. All property and cash transferred to state and
local agencies and any income generated by this property and cash is to be used for law enforcement
purposes. As a result, state and local law enforcement programs and capabilities benefit significantly
from their cooperative efforts with Federal law enforcement agencies. Among the uses of equitable
shares, priority is given to supporting community policing activities, training, and law enforcement
operations calculated to result in further seizures and forfeitures.

Performance Measures:

There are no applicable AFP performance measures. No performance measures are indicated because
the Fund’s program operations are performed by its participants. The Fund is considered to be an
enabling/administrative activity where resources are spread across agencies in accordance with full
program costing guidance.

Discussion of FY 2012 Results:

Total financing sources realized by the Fund were $4,168.7 million for the fiscal year ended
September 30, 2012. This is the seventh year since inception of the Fund that it has exceeded $1
billion in deposits. For example, in FY 2012 there was a deposit of $2,206.2 from Picower which is
related to the Bernard Madoff financial fraud case. Additionally, there was an SAIC forfeiture for
$500.4 million for contract fraud. Another example involves a Google Inc. forfeiture that yielded
$400.0 million for the distribution of advertisements for international pharmacies that illegally shipped
drugs into the United States. If we remove the effect of the 5 major large cases producing $3,311.9
million, the deposits still exceeded $1 billion in FY 2012.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
FMFIA Section 2 – Material Weaknesses

For FY 2012 and FY 2011, the independent auditors reported no material internal control weaknesses.
Management’s self assessments of the AFF/SADF internal controls over financial reporting, conducted
in FYs 2012 and 2011, as required by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
and OMB Circular No. A-123, Management’s Responsibility for Internal Control, identified
no internal control weaknesses Based on the results of the assessment for the year ended September
30, 2012, the JMD management did not identify any Section 2 material weaknesses to report that
impact the AFP.

Internal Control Program

The Attorney General will provide the overall assurance statement on internal controls for the
Department. Component responsibilities will be determined by the Department’s Senior Assessment
Team.




                                                - 11 -
AFMS is responsible for maintaining internal accounting and administrative controls that are adequate
to ensure that: (1) transactions are executed in accordance with applicable budgetary and financial
laws and other requirements, consistent with the purposes authorized, and are recorded in accordance
with Federal accounting standards; (2) assets are properly safeguarded to deter fraud, waste, and abuse;
and (3) management information is adequately supported. AFMS, along with other Fund participants
who use FMIS2 and UFMS, monitors financial transactions on an on-going basis. AFMS also requires
participants who enter Fund transactions into their own financial system to provide reports of their
financial transactions at least quarterly to update the AFF obligation status.

For FY 2012, the Offices, Boards and Divisions’ (OBD) and AFP’s management participated in the
Departmental assessment of internal controls over financial reporting required by Appendix A of OMB
Circular No. A-123. Results of the testing of the controls over financial reporting in the OBD’s will be
consolidated with other Departmental components and reported in the overall Departmental assurance
statement.

FMFIA Section 4 – Material Nonconformances

For FY 2012 and FY 2011, the Fund reported no material nonconformances of its financial-mixed IT
system CATS. In FY 2012 and FY 2011 the DOJ did not identify any systems non-conformance
required to be reported under FMFIA Section 4. The Fund relies upon the Department’s JMD/FMIS2
and UFMS managers for Section 4 compliance on the Department’s financial system of record.

Legal Compliance

For FY 2012 and FY 2011, the AFF/SADF was in compliance with the requirements and
responsibilities defined in applicable laws and administrative requirements, including FMFIA, the
Federal Financial Management Improvement Act of 1996 (FFMIA), and relevant OMB Circulars.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Financing sources in FY 2012 totaled $4,168.7 million, which are $2,431.6 million more than the
$1,737.0 million reported in FY 2011. It is difficult to project future levels of financing since they are
dependent upon many factors, including the development of new cases, uneven flow of cases through
the forfeiture process, level of appropriations that Federal law enforcement agencies receive, level of
personnel and monetary resources dedicated to the forfeiture program, international cooperation in
forfeiture and repatriation matters, Federal court decisions, and evolving forfeiture law.

In 2008, the DOJ began to replace the core financial management systems with one core commercial
off-the-shelf financial management system certified by the Financial Systems Integration Office. The
first pilot implementation of the UFMS occurred with AFMS. In 2011, the USMS Asset Forfeiture
Division (AFD) began implementing UFMS. Also in FY 2012, the AFMS began implementing the
second and final phase of UFMS. The AFMS and USMS AFD implementations of UFMS are
scheduled for completion in 2013.




                                                - 12 -
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of operations of
the AFF/SADF, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the AFF/SADF in accordance
with U.S. generally accepted accounting principles for Federal entities and the formats prescribed by
OMB, the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                               - 13 -
This page intentionally left blank.




               - 14 -
Independent Auditors’ Reports





          - 15 -
This page intentionally left blank.




               - 16 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Assets
Forfeiture Fund (AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2012 and 2011, and the
related consolidated statements of net cost and changes in net position, and the combined statements of
budgetary resources (hereinafter referred to as “consolidated financial statements” or “basic financial
statements”) for the years then ended. These consolidated financial statements are the responsibility of the
AFF/SADF’s management. Our responsibility is to express an opinion on these consolidated financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the AFF/SADF’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Assets Forfeiture Fund and Seized Asset
Deposit Fund as of September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary
resources for the years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.U. to the consolidated financial statements, the AFF/SADF changed its presentation
for reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the
AFF/SADF’s combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform
to the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis section be presented to supplement the basic financial statements. Such information, although
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 17 -
Independent Auditors’ Report on Financial Statements
Page 2 of 2




not a part of the basic financial statements, is required by the Federal Accounting Standards Advisory
Board who considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the information in the Management’s Discussion and Analysis section in accordance with
auditing standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section is presented for the purpose of
additional analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2012, on our consideration of the AFF/SADF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 5, 2012




                                              - 18 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2012 and 2011, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 5, 2012. As discussed in Note 1.U. to the consolidated financial
statements, the AFF/SADF changed its presentation for reporting the combined statement of budgetary
resources in fiscal year 2012, based on new reporting requirements under OMB Circular No. A-136,
Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our fiscal year 2012 audit, we considered the
AFF/SADF’s internal control over financial reporting by obtaining an understanding of the AFF/SADF’s
internal control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the AFF/SADF’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of the AFF/SADF’s internal control over financial reporting.
We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                       - 19 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2 of 2




financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the AFF/SADF’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 5, 2012




                                               - 20 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2012 and 2011, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 5, 2012. As discussed in Note 1.U. to the consolidated financial
statements, the AFF/SADF changed its presentation for reporting the combined statement of budgetary
resources in fiscal year 2012, based on new reporting requirements under OMB Circular No. A-136,
Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for complying with laws, regulations, and contracts
applicable to the AFF/SADF. As part of obtaining reasonable assurance about whether the AFF/SADF’s
consolidated financial statements are free of material misstatement, we performed tests of the AFF/SADF’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the AFF/SADF.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the AFF/SADF’s financial management
systems did not substantially comply with the (1) federal financial management system requirements,


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 21 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2 of 2




(2) applicable federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

This report is intended solely for the information and use of the AFF/SADF’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 5, 2012




                                             - 22 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 23 -
This page intentionally left blank.




               - 24 -
                                      U.S. Department of Justice

                        Assets Forfeiture Fund and Seized Asset Deposit Fund

                                     Consolidated Balance Sheets

                                 As of September 30, 2012 and 2011


Dollars in Thousands                                                                                  2012            2011

ASSETS (Note 2)
    Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                     $        78,375        $     229,030
         Investments, Net (Note 5)                                                          5,631,124            6,346,771
         Accounts Receivable, (Note 6)                                                          6,035                4,869
         Other Assets (Note 9)                                                                  2,339                1,766
    Total Intragovernmental                                                                 5,717,873            6,582,436
   Cash and Monetary Assets (Note 4)                                                          106,166              113,822
   Forfeited Property, Net (Note 7)                                                           145,111              172,746
   General Property, Plant and Equipment, Net (Note 8)                                          1,150                  633
   Advances and Prepayments                                                                         -                    6
Total Assets                                                                          $     5,970,300        $   6,869,643

LIABILITIES (Note 10)
    Intragovernmental
         Accounts Payable                                                             $         71,352       $     67,345
         Other Liabilities, (Note 12)                                                               39                169
    Total Intragovernmental                                                                     71,391             67,514
   Accounts Payable                                                                         2,596,491              851,013
   Accrued Payroll and Benefits                                                                   151                  767
   Accrued Annual and Compensatory Leave Liabilities                                              246                  168
   Deferred Revenue                                                                           145,111              172,746
   Seized Cash and Monetary Instruments (Note 11)                                           1,536,523            4,016,891
Total Liabilities                                                                     $     4,349,913        $   5,109,099

Contingent Liabilities (Note 13)

NET POSITION
   Cumulative Results of Operations - Earmarked Funds (Note 14)                       $     1,620,387        $   1,760,544
Total Net Position                                                                    $     1,620,387        $   1,760,544
Total Liabilities and Net Position                                                    $     5,970,300        $   6,869,643


                         The accompanying notes are an integral part of these financial statements.




                                                            - 25 -
                                                        U.S. Department of Justice

                                         Assets Forfeiture Fund and Seized Asset Deposit Fund

                                                  Consolidated Statements of Net Cost

                                        For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands

                                         Gross Costs                                   Less: Earned Revenues                      Net Cost


                          Intra­           With the                            Intra­              With the                     of Operations
            FY         governmental         Public            Total         governmental            Public            Total        (Note 15)


Goal 2	    2012        $      382,840    $ 3,936,567      $ 4,319,407       $        10,585    $              -   $    10,585   $ 4,308,822


           2011        $      380,028    $ 1,293,384      $ 1,673,412       $         9,513    $              -   $     9,513   $ 1,663,899



Total	     2012        $      382,840    $ 3,936,567      $ 4,319,407       $        10,585    $              -   $    10,585   $ 4,308,822


           2011        $      380,028    $ 1,293,384      $ 1,673,412       $         9,513    $              -   $     9,513   $ 1,663,899


Goal 2: Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law




                                 The accompanying notes are an integral part of these financial statements.




                                                                 - 26 -
                                            U.S. Department of Justice

                              Assets Forfeiture Fund and Seized Asset Deposit Fund

                               Consolidated Statements of Changes in Net Position

                             For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                     2012              2011

                                                                                     Earmarked        Earmarked
                                                                                       Funds            Funds
Cumulative Results of Operations
  Beginning Balances                                                                $    1,760,544    $   1,687,400

  Budgetary Financing Sources
    Nonexchange Revenues (Note 19)                                                           3,327            4,596
    Donations and Forfeitures of Cash and Cash Equivalents (Note 20)                     4,194,465        1,580,584

  Other Financing Sources
    Donations and Forfeitures of Property (Note 20)                                        120,245          157,381
    Transfers-In/Out Without Reimbursement (Note 18)                                      (149,908)          (6,120)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                  536              602
  Total Financing Sources                                                                4,168,665        1,737,043

  Net Cost of Operations                                                                (4,308,822)       (1,663,899)

  Net Change                                                                              (140,157)          73,144

  Cumulative Results of Operations                                                  $    1,620,387    $   1,760,544

Net Position                                                                        $    1,620,387    $   1,760,544


                       The accompanying notes are an integral part of these financial statements.




                                                                        - 27 -
                                               U.S. Department of Justice

                                 Assets Forfeiture Fund and Seized Asset Deposit Fund

                                     Combined Statements of Budgetary Resources

                                For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                                2012             2011

Budgetary Resources:
     Unobligated Balance, Brought Forward, October 1                                          $                 1,088,719   $   1,010,179
     Recoveries of Prior Year Unpaid Obligations                                                                   84,186          83,669
     Unobligated Balance from Prior Year Budget Authority, Net                                                  1,172,905       1,093,848
     Appropriations (discretionary and mandatory)                                                               4,100,446       1,602,768
     Spending Authority from Offsetting Collections (discretionary and mandatory)                                  17,027          12,309
Total Budgetary Resources                                                                      $            5,290,378       $   2,708,925

Status of Budgetary Resources:
     Obligations Incurred (Note 17)                                                           $                 4,528,369   $   1,620,206
     Unobligated Balance, End of Period:
           Apportioned                                                                                           639,541          635,227
           Unapportioned                                                                                         122,468          453,492
     Total Unobligated Balance - End of Period                                                                   762,009        1,088,719
Total Status of Budgetary Resources:                                                           $            5,290,378       $   2,708,925

Change in Obligated Balance:
     Obligated Balance, Net - Brought Forward, October 1
           Unpaid Obligations, Gross                                                          $                 1,092,300 $       982,679
           Less: Uncollected Customer Payments from Federal Sources                                                 4,889           4,245
                  Total Obligated Balance, Net - Brought Forward, October 1                                     1,087,411         978,434
     Obligations Incurred                                                                                       4,528,369       1,620,206
     Less: Outlays, Gross                                                                                       2,687,103       1,426,916
     Change in Uncollected Customer Payments from Federal Sources                                                  (4,000)           (644)
     Less: Recoveries of Prior Year Unpaid Obligations                                                             84,186          83,669

     Obligated Balance, Net - End of Period
           Unpaid Obligations, Gross                                                                            2,849,380       1,092,300
           Less: Uncollected Customer Payments from Federal Sources                                                 8,889           4,889
     Total Obligated Balance, Net - End of Period                                              $            2,840,491       $   1,087,411

Budgetary Authority and Outlays, Net:
     Budgetary Authority, Gross (discretionary and mandatory)                                 $                 4,117,473 $     1,615,077
     Less: Actual Offsetting Collections (discretionary and mandatory)                                             13,027          11,665
     Change in Uncollected Customer Payments from Federal Sources                                                  (4,000)           (644)
           (discretionary and mandatory)
     Budget Authority, Net (discretionary and mandatory)                                       $            4,100,446       $   1,602,768
     Outlays, Gross (discretionary and mandatory)                                             $                 2,687,103   $   1,426,916
     Less: Actual Offsetting Collections (discretionary and mandatory)                                             13,027          11,665
     Outlays, Net (discretionary and mandatory)                                                                 2,674,076       1,415,251
     Less: Distributed Offsetting Receipts                                                                          3,327           4,596
     Agency Outlays, Net (discretionary and mandatory)                                         $            2,670,749       $   1,410,655
                                   The accompanying notes are an integral part of these financial statements.




                                                                   - 28 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

The Assets Forfeiture Fund (AFF or Fund) and Seized Asset Deposit Fund (SADF) together
comprise a single financial reporting entity of the Department of Justice (DOJ or Department),
which includes the specified funds, property seized for forfeiture, and the transactions and
program activities of DOJ forfeiture program components and other participating agencies as
described more fully herein.

The primary mission of the DOJ Asset Forfeiture Program (AFP) is to maximize the
effectiveness of forfeiture as a deterrent to crime. This is accomplished by means of depriving
drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be a repository of
proceeds from forfeitures under any law enforced and administered by the DOJ. AFF and SADF
are managed by the Asset Forfeiture Management Staff (AFMS), Justice Management Division
(JMD). The SADF was created administratively by the Department to ensure control over monies
seized by agencies participating in the Department’s AFP.


B.     Basis of Presentation

These financial statements have been prepared from the books and records of the AFF/SADF in
accordance with United States generally accepted accounting principles issued by the Federal
Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements. These
financial statements are different from the financial reports prepared pursuant to OMB directives,
which are used to monitor and control the use of the AFF/SADF budgetary resources. To ensure
that the AFF/SADF financial statements are meaningful at the entity level and to enhance
reporting consistency within the Department, Other Assets and Other Liabilities as defined by
OMB Circular No. A-136 have been disaggregated on the balance sheet. These include Forfeited
Property, Net; Advances and Prepayments; Accrued Payroll and Benefits; Accrued Annual and
Compensatory Leave Liabilities; Deferred Revenue, and Seized Cash and Monetary Instruments.




                    These notes are an integral part of the financial statements.


                                                    - 29 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



C.     Basis of Consolidation

The consolidated/combined financial statements include the accounts of the AFF/SADF. All
significant proprietary intra-entity transactions and balances have been eliminated in
consolidation.

D.     Basis of Accounting

Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
based upon legal considerations and constraints. As a result, certain line items on the proprietary
financial statements may not equal similar line items on the budgetary financial statements.

E.     Non-Entity Assets

Non-entity assets consist of seized cash and investments of seized cash that are not available to
fund the operations of the AFP.

F.     Fund Balance with U.S. Treasury and Cash

Generally, the U.S. Treasury processes cash receipts and disbursements for the AFF and SADF.
The funds in the AFF, a special fund receipt account, are entity assets and are used to finance the
operations of the AFP. Seized cash is deposited and accounted for in the SADF, a deposit fund,
until a determination has been made as to its disposition. If title passes to the U.S. Government,
the forfeited cash is then transferred from the SADF to the AFF. The cash balance in the SADF
is a non-entity asset and is not available to finance the AFP activities, but the AFP does have
statutory authority for the investment of idle cash.




                    These notes are an integral part of the financial statements.


                                                    - 30 -
                                                 FY 2012 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


G.     Investments

The AFF and SADF are authorized by 28 U.S.C. § 524(c) to invest idle funds in excess of their
immediate needs in U.S. Treasury Securities. Investments are short-term, non-marketable
market-based Federal Debt securities issued by the Bureau of Public Debt (BPD) and purchased
exclusively through the BPD’s Division of Federal Investments. Investments are reported on the
Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized
premium or discount. Premiums and discounts are amortized over the life of the Treasury
security. Amortization is based on the straight-line method over the term of the securities. AFF
and SADF intend to hold investments to maturity. Accordingly, no provision is made for
unrealized gains or losses on these securities.

H.     Accounts Receivable

Accounts receivable consist of amounts due from the Treasury Executive Office for Asset
Forfeiture for goods or services provided by the AFP. Receivables arising from services
provided to the Treasury Executive Office for Asset Forfeiture are considered fully collectible.
Therefore, no allowance for uncollectible accounts is established.

I.     General Property, Plant and Equipment

The General Services Administration (GSA), which charges rent equivalent to the commercial
rates for similar properties, provides a building on a reimbursable basis in which AFP operates.
The Department does not recognize depreciation on buildings owned by the GSA.

Property, plant and equipment consist of leasehold improvements and enhancements to the
Consolidated Asset Tracking System (CATS), which meet the SFFAS No. 10, Accounting for
Internal Use Software, definition of “internal use software.” Leasehold improvements are
capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an
estimated useful life of two or more years. Internal use software is capitalized when
developmental phase costs or enhancement costs are $500 or more and the asset has an estimated
useful life of two or more years. Internal use software purchases with an acquisition cost of less
than $500 are expensed when purchased. Depreciation is calculated using the straight-line
method over the useful lives of the assets.




                     These notes are an integral part of the financial statements.


                                                     - 31 -
                                                 FY 2012 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


J.     Advances and Prepayments

Advances and prepayments include advances to other Federal agencies for any law enforcement,
litigative/prosecutive, and correctional activity, or any other authorized purpose of the DOJ and
travel advances issued to Federal employees for official travel. Travel advances are limited to
meals and incidental expenses expected to be incurred by employees during official travel.
Payments in advance of the receipt of goods and services are recorded as prepaid charges at the
time of payment and are recognized as expenses when the goods and services are received.
Advances and prepayments involving other Federal agencies are classified as Other Assets on the
balance sheet.

K.     Forfeited and Seized Property

Property is seized in consequence of a violation of public law. Seized property can include
monetary instruments, real property, and tangible personal property of others in the actual or
constructive possession of the custodial agency. The value of seized property is its estimated fair
market value at the time it was seized. Most seized property is held by the USMS from the point
of seizure until its disposition. In certain cases, the investigative agency will keep seized
property in its custody if the intention is to place the property into official use after forfeiture or
to use the property as evidence in a court proceeding.

Forfeited property is property for which title has passed to the U.S. Government. This property is
recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
subsequent increases and decreases in estimated fair market value. The value of the property is
reduced by estimated liens of record. The amount ultimately realized from the forfeiture and
disposition of these assets could differ from the amounts initially reported. The proceeds from
the sale of forfeited property are deposited in the AFF.

L.     Liabilities

AFF accounts payable represent liabilities to both Federal and non-Federal entities. Deferred
revenue represents the value of forfeited property not yet sold or placed into official use. Seized
cash and monetary instruments represent liabilities for SADF amounts on deposit pending
disposition.




                     These notes are an integral part of the financial statements.


                                                     - 32 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


M.     Contingencies and Commitments

The AFF is party to various administrative proceedings, legal actions and claims. The balance
sheet includes an estimated liability for those legal actions where management and the Chief
Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable are disclosed in Note 13,
Contingencies and Commitments. However, there are cases where amounts have not been
accrued or disclosed because the amounts of the potential loss cannot be estimated or the
likelihood of an unfavorable outcome is considered “remote”.


N.     Retirement Plans

With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
Retirement System (CSRS) and employees hired on or after that date are covered by the Federal
Employees Retirement System (FERS). For employees covered by CSRS, the AFF contributes
7% of the employees’ gross pay for retirement. For employees covered by FERS, the AFF
contribute 11.9% of the employees’ gross pay for retirement. All employees are eligible to
contribute to the Federal Thrift Savings Plan (TSP). For those employees covered by the FERS,
a TSP account is automatically established, and the AFF is required to contribute an additional
1% of gross pay to this plan and match employee contributions up to 4%. No contributions are
made to the TSP accounts established by the CSRS employees. The AFF does not report CSRS
or FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be
applicable to their employees. Such reporting is the responsibility of the Office of Personnel
Management (OPM). Statement of Federal Financial Accounting Standards (SFFAS) No. 5,
Accounting for Liabilities of the Federal Government, requires employing agencies to recognize
the cost of pensions and other retirement benefits during their employees’ active years of service.
Refer to Note 16, Imputed Financing from Costs Absorbed by Others, for additional details.


O.     Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies must pay interest
on payments for goods or services made to concerns after the due date. The due date is generally
30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
later.




                    These notes are an integral part of the financial statements.


                                                    - 33 -
                                                 FY 2012 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


P.     Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal Government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
Government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.

Q.     Revenues and Other Financing Sources

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statements of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on investments (i.e., nonexchange
revenues) and (2) donations and forfeitures, which include forfeited cash, proceeds from the sale
of forfeited property (or conversion of deferred revenue to realized revenue through sale), receipt
of payments in lieu of property forfeiture, recovery of asset management expenses, and financing
sources from judgments. These financing sources are recognized when cash is forfeited, forfeited
property is sold, or forfeited property is placed into official use or transferred to another Federal
agency. The financing sources from legal judgments are not recognized until the judgment has
been enforced. Deferred revenue is recorded when the property is forfeited. When the property is
sold or otherwise disposed, the deferred revenue becomes earned and a financing source is
recognized. The AFF recognizes exchange revenue when the United States Attorneys Offices
provide services in judicial forfeiture cases brought by agencies participating in the U.S.
Department of the Treasury (Treasury), Treasury Forfeiture Fund (TFF). The AFF recognizes
exchange revenue on a reimbursement basis and the revenue is presented on the Consolidated
Statements of Net Cost as earned revenue. In accordance with 28 U.S.C. § 524 and AFMS
Memorandums of Understanding, donations and forfeitures available for use by certain Federal
agencies are treated as returns of financing sources when disbursed. The funds in the SADF are
held in trust until a determination is made as to their disposition. These funds include seized
cash, proceeds from preforfeiture sales of seized property, and income from property under
seizure. No revenue recognition is given to cash deposited in the SADF.




                     These notes are an integral part of the financial statements.


                                                     - 34 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


R.     Earmarked Funds

SFFAS No. 27, Identifying and Reporting Earmarked Fund defines “Earmarked Funds” as being
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities, benefits or purposes, and must
be accounted for separately from the Government’s general revenues. The three required criteria
for an earmarked fund are:

 1.	 A statute committing the Federal Government to use specifically identified revenues and
     other financing sources only for designated activities, benefits, or purposes;
 2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources not
     used in the current period for future use to finance the designated activities, benefits, or
     purposes; and
 3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
     and other financing sources that distinguishes the earmarked fund from the Government’s
     general revenues.

The AFF meets the definition of an Earmarked Fund, but the SADF does not meet the definition
of an Earmarked Fund.

S.     Tax Exempt Status

As an agency of the Federal Government, AFF is exempt from all income taxes imposed by any
governing body whether it be a Federal, state, commonwealth, local, or foreign government.

T.     Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenues and expenses during the reporting period. Actual results could differ from those
estimates.




                    These notes are an integral part of the financial statements.


                                                    - 35 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


U.     Reclassifications

The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental and
OMB financial statement presentation requirements. Changes to the presentation of the
Combined and Combining Statements of Budgetary Resources were made, in accordance with
guidance provided in OMB Circular A-136, Financial Reporting Requirements and as such,
activity and balances reported on the FY 2011 Combined and Combining Statement of Budgetary
Resources have been reclassified to conform to the presentation in the current year. Certain other
prior year amounts have also been reclassified to conform with the current year presentation. The
reclassifications had no material effect on total assets, liabilities, net position, change in net
position or budgetary resources as previously reported.

V.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2012 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




                    These notes are an integral part of the financial statements.


                                                    - 36 -
                                                 FY 2012 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

Non-entity assets are assets held by the AFP that are not available for use by the AFP.

As of September 30, 2012 and 2011
                                                                  2012                   2011
Intragovernmental
    Investments, Net (Note 5)                               $     1,430,357          $    3,903,069
With the Public
    Cash and Monetary Assets                                        106,166                 113,822
       Total Non-Entity Assets                                    1,536,523               4,016,891
       Total Entity Assets                                        4,433,777               2,852,752
       Total Assets                                         $     5,970,300          $    6,869,643


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2012 and 2011
                                                                  2012                   2011
 Fund Balances
    Special Funds                                           $        78,375          $     229,030

 Status of Fund Balances
    Unobligated Balance - Available                         $       639,541          $      635,227
    Unobligated Balance - Unavailable                               122,468                 453,492
    Obligated Balance not yet Disbursed                           2,840,491               1,087,411
    Other Funds (With)/Without Budgetary Resources               (3,524,125)             (1,947,100)
        Total Status of Fund Balances                       $        78,375          $      229,030

Other Funds (With)/Without Budgetary Resources primarily represent the AFF investments in
short-term securities less amounts Temporarily not Available Pursuant to Public Law.




                     These notes are an integral part of the financial statements.


                                                     - 37 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 4. Cash and Monetary Assets

Cash consists of seized cash deposited in the SADF. Monetary assets include seized cash in DOJ
custody but not yet deposited in the SADF.

As of September 30, 2012 and 2011
                                                           2012                     2011
Cash
   Seized Cash Deposited                              $        82,166       $         87,243

Monetary Assets
   Seized Monetary Instruments                                 24,000                 26,579
      Total Cash and Monetary Assets                  $       106,166       $        113,822


Note 5. Investments, Net

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with AFF. The cash receipts collected from the public for the AFF, an earmarked
fund, are deposited in the U.S. Treasury, which uses the cash for general Government purposes.
Treasury securities are issued to the AFF as evidence of its receipts. Treasury securities are an
asset to the AFF and a liability to the U.S. Treasury. Because the AFF and the U.S. Treasury are
both parts of the Government, these assets and liabilities offset each other from the standpoint of
the Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.




                    These notes are an integral part of the financial statements.


                                                    - 38 -
                                                  FY 2012 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net (continued)

Treasury securities provide the AFF with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the AFF requires redemption of these
securities to make expenditures, the Government finances those expenditures out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less
debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.

                                                          Unamortized
                                          Face              Premium          Investments,        Market
                                          Value            (Discount)            Net             Value
As of September 30, 2012
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                $    4,200,904      $         (137)    $    4,200,767   $    4,200,604
                SADF                      1,430,733                (376)         1,430,357        1,430,532
Total                                $    5,631,637      $         (513)    $    5,631,124   $    5,631,136



As of September 30, 2011
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                $    2,443,690      $           12     $    2,443,702   $    2,443,596
                SADF                      3,903,291                (222)         3,903,069        3,903,095
Total                                $    6,346,981      $         (210)    $    6,346,771   $    6,346,691




                      These notes are an integral part of the financial statements.


                                                      - 39 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable

Accounts receivable consist of amounts owed to the AFF from the Treasury Executive Office for
Asset Forfeiture for services provided to the U.S. Treasury. There is no allowance for
uncollectible accounts since accounts receivable from business with Federal entities are
considered fully collectible.

As of September 30, 2012 and 2011
                                                           2012                     2011
Intragovernmental
    Accounts Receivable                               $         6,035       $          4,869

      Total Accounts Receivable                       $         6,035       $          4,869


Note 7. Forfeited and Seized Property

Property seized for any purpose other than forfeiture and held by the seizing agency or a
custodial agency is reported in the financial statements of the seizing or custodial agency. All
property seized for forfeiture, including property with evidentiary value, is reported in the
financial statements of the AFF/SADF. Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property, requires disclosure of
property that does not have a legal market in the United States or does not have a value to the
Federal government.

A.     Forfeited Property

The following tables show the analysis of changes in and methods of disposition of forfeited
property, excluding cash, during the fiscal years ended September 30, 2012 and 2011,
respectively.




                    These notes are an integral part of the financial statements.


                                                    - 40 -
                                                                        FY 2012 AFF/SADF Annual Financial Statements
                                                 U.S. Department of Justice
                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)



Note 7. Forfeited and Seized Property (continued)

                    Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2012

                                                                                                                                 Liens                Ending
  Forfeited Property                    Beginning                                                             Ending              and                Balance
      Category                           Balance     Adjustments (1)     Forfeitures       Disposals          Balance            Claims             Net of Liens


Financial Instruments    Number                117                  -            283              (222)             178                      -                  178
                         Value      $        1,730   $              - $       25,544   $       (25,945) $         1,329     $             (658) $               671

Real Property            Number                452                  -            390              (424)             418                      -                   418
                         Value      $       98,008   $              - $       64,732   $       (80,744) $        81,996     $             (977) $             81,019

Personal Property        Number              3,384                   -         6,156            (5,682)           3,858                      -                 3,858
                         Value      $       74,846   $         (16,146) $     80,856   $       (75,584) $        63,972     $             (551) $             63,421

Firearms, Non-Valued     Number             23,593                  -         17,525           (14,322)          26,796                      -                26,796

Total                    Number             27,546                   -        24,354           (20,650)          31,250                     -                 31,250
                         Value      $      174,584   $         (16,146) $    171,132   $      (182,273) $       147,297     $          (2,186) $             145,111



                        (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders.
                        In addition, Adjustments include property status and valuation changes received after, but properly credited to the prior fiscal
                        year. The valuation changes include updates and corrections to an asset's value recorded in a prior year.

                Methods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2012

                                                                                          Official Use/
                                                                                          Transfer for
  Forfeited Property                 Converted Financial Destroyed/Donated/     Sold/      Equitable                      Returned
      Category                       Instruments/Property    Transferred    Liquidated (1) Sharing                         Assets Variance (2)              Total


Financial Instruments    Number                         208                        9              4                -               1                -           222
                         Value        $              25,024 $                      7   $        914       $        - $             - $              -   $    25,945

Real Property            Number                            -                     15              363               1               45               -           424
                         Value       $                     - $                2,114    $      70,789      $      179    $       7,662 $             -   $    80,744

Personal Property        Number                            5                    967            3,550             955              205               -         5,682
                         Value        $                  117 $                  551    $      61,007      $   11,222    $       2,687 $             -   $    75,584

Firearms, Non-Valued     Number                            -                 12,300                -           1,522             500                -        14,322

Total                    Number                         213                  13,291            3,917           2,478            751                 -      20,650
                         Value        $              25,141 $                 2,672    $     132,710      $   11,401    $    10,349 $               -   $ 182,273

                         (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of
                         Changes in Net Position and Note 21 because the sold/liquidated amount above represents the assets at their appraised
                         values at forfeiture, and the Donations and Forfeitures of Property on the Statement of Changes in Net Position and
                         Note 21 represents the proceeds realized upon disposition.

                         (2) Variances can result from differences between the value of the property when seized and the value of the property
                         when disposed.


                             These notes are an integral part of the financial statements.


                                                                            - 41 -
                                                                       FY 2012 AFF/SADF Annual Financial Statements
                                                 U.S. Department of Justice
                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

                    Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2011

                                                                                                                                Liens                Ending
  Forfeited Property                    Beginning                                                            Ending              and                Balance,
      Category                           Balance     Adjustments (1)    Forfeitures       Disposals          Balance            Claims             Net of Liens


Financial Instruments    Number                 97                -             155              (135)             117                      -                   117
                         Value      $        2,219   $            - $        15,822   $       (16,311) $         1,730     $                - $               1,730

Real Property            Number                477                -             315              (340)             452                      -                   452
                         Value      $       89,018   $            - $        74,928   $       (65,938) $        98,008     $             (866) $             97,142

Personal Property        Number              3,047                -           5,996            (5,659)           3,384                      -                 3,384
                         Value      $      102,196   $            - $        93,813   $      (121,163) $        74,846     $             (972) $             73,874

Firearms, Non-Valued     Number             19,378                -          16,231           (12,016)          23,593                      -                23,593

Total                    Number             22,999                -          22,697           (18,150)          27,546                     -                 27,546
                         Value      $      193,433   $            - $       184,563   $      (203,412) $       174,584     $          (1,838) $             172,746



                        (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders.
                        In addition, Adjustments include property status and valuation changes received after, but properly credited to the prior fiscal
                        year. The valuation changes include updates and corrections to an asset's value recorded in a prior year.


                Methods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2011

                                                                                          Official Use/
                                                                                          Transfer for
  Forfeited Property                 Converted Financial Destroyed/Donated/     Sold/      Equitable                     Returned
      Category                       Instruments/Property    Transferred    Liquidated (1) Sharing                        Assets Variance (2)              Total


Financial Instruments    Number                           21                   112                -               -                2               -           135
                         Value        $                  484 $              14,571    $           -      $        -    $       1,256 $             -   $    16,311

Real Property            Number                            -                     5              309               1               25               -           340
                         Value       $                     - $                 179    $      60,290      $       55    $       5,414 $             -   $    65,938

Personal Property        Number                            -                   986            3,509             972              192               -       5,659
                         Value       $                     - $               1,461    $     105,116      $   11,994    $       2,592 $             -   $ 121,163

Firearms, Non-Valued     Number                            -                11,355                -             265             396                -        12,016

Total                    Number                           21                12,458            3,818           1,238              615               -      18,150
                         Value        $                  484 $              16,211    $     165,406      $   12,049    $       9,262 $             -   $ 203,412

                         (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of
                         Changes in Net Position and Note 21 because the sold/liquidated amount above represents the assets at their appraised
                         values at forfeiture, and the Donations and Forfeitures of Property on the Statement of Changes in Net Position and
                         Note 21 represents the proceeds realized upon disposition.

                         (2) Variances can result from differences between the value of the property when seized and the value of the property
                         when disposed.



                             These notes are an integral part of the financial statements.


                                                                           - 42 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

B.     Seized Property

The following tables show the analysis of changes in and methods of disposition of property
seized for forfeiture during the fiscal years ended September 30, 2012 and 2011, respectively. In
the following tables, Seized Cash and Monetary Instruments includes seized cash in transit as
well as pre-forfeiture deposits into the SADF of monetary instruments and depository account
balances, proceeds from pre-forfeiture sales, and cash received in lieu of seized property.
Financial Instruments include negotiable instruments and restricted depository accounts.




                    These notes are an integral part of the financial statements.


                                                    - 43 -
                                                                                  FY 2012 AFF/SADF Annual Financial Statements
                                                       U.S. Department of Justice
                                                   Notes to the Financial Statements
                                                (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

                        Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2012

                                                                                                                                                    Liens             Ending
    Seized Property                           Beginning                                                                       Ending                 and              Balance
       Category                                Balance      Adjustments (1)           Seizures          Disposals             Balance               Claims          Net of Liens

Seized Cash and             Number                 12,048                     -            15,127              (12,975)              14,200                  -               14,200
Monetary Instruments        Value         $     4,016,891 $                   - $       1,587,055   $       (4,067,423) $         1,536,523    $      (125,969) $         1,410,554

Financial Instruments       Number                   477                    (135)            328                    (150)              520                   -                    520
                            Value         $       53,241 $               (33,852) $       55,920    $             (6,941) $         68,368     $        (4,851) $              63,517

Real Property               Number                   146                     (2)             131                    (148)              127                   -                    127
                            Value         $       48,364     $              365 $         35,139    $            (38,784) $         45,084     $        (9,710) $              35,374

Personal Property           Number                 7,477                      -            8,264               (7,722)               8,019                   -                8,019
                            Value         $      184,003 $                    - $        107,126    $        (107,332) $           183,797     $       (16,667) $           167,130

Firearms, Non-Valued        Number                36,915                      -           19,716                 (23,059)           33,572                    -                33,572

Total                       Number                 57,063                   (137)          43,566              (44,054)              56,438                  -               56,438
                            Value         $     4,302,499 $              (33,487) $     1,785,240   $       (4,220,480) $         1,833,772    $      (157,197) $         1,676,575



                           (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders.




                        Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2012



    Seized Property                  Converted Financial Destroyed/Donated/    Sold/                         Returned
       Category                      Instruments/Property    Transferred    Liquidated                        Assets          Forfeited (1)        Variance (2)        Total

Seized Cash and           Number                              34                         86             -             864             11,991                  -              12,975
Monetary Instruments      Value       $                    5,748     $                4,053 $           -    $     46,656     $    4,010,966   $              - $         4,067,423

Financial Instruments     Number                                 2                       8              -              22                118                  -                   150
                          Value       $                          4   $                 345 $            -    $        467     $        6,125   $              - $               6,941

Real Property             Number                                 -                       4              -              13                131                  -                   148
                          Value       $                          -   $                 793 $            -    $      1,201     $       36,790   $              - $              38,784

Personal Property         Number                                 -                      157          6              1,795              5,764                  -               7,722
                          Value       $                          -   $                1,886   $     42       $     37,584     $       67,820   $              - $           107,332

Firearms, Non-Valued      Number                                 -                    1,060             -           1,194             20,805                  -                23,059

Total                     Number                              36                      1,315          6              3,888             38,809                  -              44,054
                          Value       $                    5,752     $                7,077   $     42       $     85,908     $    4,121,701   $              - $         4,220,480

                          (1) Forfeitures reported on the Analysis of Changes in Forfeited Property may be greater because some assets are not seized
                              until after they are declared forfeited.
                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed.




                                These notes are an integral part of the financial statements.


                                                                                        - 44 -
                                                                               FY 2012 AFF/SADF Annual Financial Statements
                                                       U.S. Department of Justice
                                                   Notes to the Financial Statements
                                                (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

                        Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2011

                                                                                                                                                  Liens             Ending
    Seized Property                           Beginning                                                                     Ending                 and              Balance
       Category                                Balance     Adjustments (1)         Seizures           Disposals             Balance               Claims          Net of Liens

Seized Cash and             Number                 11,084                  -            13,078               (12,114)              12,048                  -               12,048
Monetary Instruments        Value         $     1,424,806 $                - $       3,844,026    $       (1,251,941) $         4,016,891    $       (92,080) $         3,924,811

Financial Instruments       Number                   413                 (109)            274                     (101)              477                   -                    477
                            Value         $       99,712 $            (66,438) $       24,101     $             (4,134) $         53,241     $        (3,236) $              50,005

Real Property               Number                   183                   -              153                     (190)              146                   -                    146
                            Value         $       61,270 $                 - $         49,431     $            (62,337) $         48,364     $       (16,030) $              32,334

Personal Property           Number                 7,319                   -            7,171                (7,013)               7,477                   -                7,477
                            Value         $      161,552 $                 - $        124,371     $        (101,920) $           184,003     $       (16,209) $           167,794

Firearms, Non-Valued        Number                34,281                   -           23,858                  (21,224)           36,915                    -                36,915

Total                       Number                 53,280                (109)          44,534               (40,642)              57,063                  -               57,063
                            Value         $     1,747,340 $           (66,438) $     4,041,929    $       (1,420,332) $         4,302,499    $      (127,555) $         4,174,944



                           (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders.




                        Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2011



    Seized Property                  Converted Financial Destroyed/Donated/    Sold/                       Returned
       Category                      Instruments/Property    Transferred    Liquidated                      Assets          Forfeited (1)        Variance (2)        Total

Seized Cash and           Number                              -                    114                -             933             11,067                  -              12,114
Monetary Instruments      Value       $                       -   $             10,223 $              -    $     73,616     $    1,168,102   $              - $         1,251,941

Financial Instruments     Number                              -                       9               -              33                 59                  -                   101
                          Value       $                       -   $                 495 $             -    $        937     $        2,702   $              - $               4,134

Real Property             Number                              -                       5              1               29                155                  -                   190
                          Value       $                       -   $                 161    $     1,600     $      9,333     $       51,243   $              - $              62,337

Personal Property         Number                              -                      112            6             1,425              5,470                  -               7,013
                          Value       $                       -   $                1,030   $       29      $     25,145     $       75,716   $              - $           101,920

Firearms, Non-Valued      Number                              -                    572                -           1,104             19,548                  -                21,224
                                                                                     -
Total                     Number                              -                    812               7         3,524                36,299                  -              40,642
                          Value       $                       -   $             11,909     $     1,629     $ 109,031        $    1,297,763   $              - $         1,420,332

                          (1) Forfeitures reported on the Analysis of Change in Forfeited Property may be greater because some assets are not seized
                              until after they are declared forfeited.
                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed.




                                These notes are an integral part of the financial statements.


                                                                                     - 45 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

C.     Anticipated Equitable Sharing in Future Periods

The statute governing the use of the AFF (28 U.S.C. §524(c)) permits the payment of equitable
shares of forfeiture proceeds to participating foreign governments, and state and local law
enforcement agencies. The statute does not require such sharing and permits the Attorney
General wide discretion in determining those transfers. Actual sharing is difficult to predict
because many factors influence both the amount and time of disbursement of equitable sharing
payments, such as the length of time required to move an asset through the forfeiture process to
disposition, the amount of net proceeds available for sharing, the lapse of time for Departmental
approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of
any equitable sharing payment, an obligation and expense are recorded only when the actual
disbursement of the equitable sharing payment is imminent. The anticipated equitable sharing
allocation level for FY 2013 is $721 million.



Note 8. General Property, Plant and Equipment, Net

                                     Acquisition      Accumulated         Net Book         Useful
                                       Cost           Depreciation         Value            Life
As of September 30, 2012

Leasehold Improvements               $     1,046       $      (469)      $        577        5 years
Equipment                                     74               (34)                40     5-12 years
Internal Use Software                        709              (176)               533        7 years
   Total                             $     1,829       $      (679)      $      1,150

As of September 30, 2011

Leasehold Improvements               $       470       $      (470)      $            -      5 years
Internal Use Software                        709               (76)                 633      7 years
    Total                            $     1,179       $      (546)      $          633




                    These notes are an integral part of the financial statements.


                                                    - 46 -
                                                 FY 2012 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2012 and 2011
                                                             2012                        2011
Intragovernmental
    Advances and Prepayments                         $              2,339        $              1,766


Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2012 and 2011
                                                                     2012                        2011

   Accrued Annual and Compensatory Leave Liability            $            246           $                    168
   Total Liabilities not Covered by Budgetary Resources                    246                                168
   Total Liabilities Covered by Budgetary Resources                  4,349,667                          5,108,931
   Total Liabilities                                          $      4,349,913           $              5,109,099



Note 11. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the
SADF pending disposition.

As of September 30, 2012 and 2011
                                                                  2012                       2011

   Investments, Net (Note 5)                             $          1,430,357        $          3,903,069
   Seized Cash Deposited (Note 4)                                      82,166                      87,243
   Seized Monetary Instruments (Note 4)                                24,000                      26,579
     Total Seized Cash and Monetary Instruments          $          1,536,523        $          4,016,891




                     These notes are an integral part of the financial statements.


                                                     - 47 -
                                                   FY 2012 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities.

As of September 30, 2012 and 2011
                                                                    2012                       2011
Intragovernmental
    Employer Contributions and Payroll Taxes Payable            $             39       $              169


Note 13. Contingencies and Commitments

                                                  Accrued                    Estimated Range of Loss
                                                  Liabilities              Lower             Upper
      As of September 30, 2012
         Reasonably Possible                  $                 -    $         2,000       $          3,250

      As of September 30, 2011
         Reasonably Possible                  $                 -    $         4,000       $          4,000




                      These notes are an integral part of the financial statements.


                                                       - 48 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

The AFF, an earmarked fund, exists to eliminate economic disincentives to operation of an
extensive national asset forfeiture program by providing a stable source of funds to pay costs, not
otherwise funded under agency appropriations, to execute forfeiture functions. This is made
possible by depositing the proceeds of all forfeitures under any laws enforced or administered by
the Department into the Fund, and using those receipts to finance expenses associated with asset
forfeiture functions.

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statement of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on Treasury investments (i.e.,
nonexchange revenues) and (2) non-governmental donations and forfeitures, which include
forfeited cash, proceeds from the sale of forfeited property (or conversion of deferred revenue to
realized revenue through sale), receipt of payments in lieu of property forfeiture, recovery of
asset management expenses, and financing sources from judgments.

The AFF recognizes exchange revenue, on a reimbursement basis, when the United States
Attorneys Offices provide services in judicial forfeiture cases brought by agencies participating
in the Treasury Forfeiture Fund. This revenue is presented on the Consolidated Statement of Net
Cost as earned revenue. In accordance with 28 U.S.C. § 524 and AFMS Memoranda of
Understanding, donations and forfeitures available for use by certain Federal agencies are treated
as returns of financing sources when disbursed.

All funds deposited to the AFF are considered "public" monies, i.e., funds belonging to the U.S.
Government. The monies deposited into the AFF are available to cover all expenditures in
support of the AFP that are allowable under the Fund statute created by the Comprehensive
Crime Control Act of 1984 (P.L. 98-473, dated October 12, 1984) at 28 U.S.C. § 524(c).




                    These notes are an integral part of the financial statements.


                                                    - 49 -
                                                   FY 2012 AFF/SADF Annual Financial Statements
                                        U.S. Department of Justice
                                    Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds (continued)

As of September 30, 2012 and 2011

                                                            2012                       2011
Balance Sheet
    Assets
        Fund Balance with U.S. Treasury              $          78,375          $         229,030
        Investments, Net                                     4,200,767                  2,443,702
        Other Assets                                           154,634                    180,020
           Total Assets                              $       4,433,776          $       2,852,752

    Liabilities
        Accounts Payable                             $       2,667,843          $         918,358
        Other Liabilities                                      145,546                    173,850
             Total Liabilities                       $       2,813,389          $       1,092,208

    Net Position
       Cumulative Results of Operations              $       1,620,387          $       1,760,544
          Total Net Position                         $       1,620,387          $       1,760,544
          Total Liabilities and Net Position         $       4,433,776          $       2,852,752


For the Fiscal Years Ended September 30, 2012 and 2011

                                                            2012                       2011
Statement of Net Cost
        Gross Cost of Operations                     $       4,319,407          $       1,673,412
        Less: Earned Revenue                                    10,585                      9,513
           Net Cost of Operations                    $       4,308,822          $       1,663,899

Statement of Changes in Net Position
     Net Position Beginning of Period                $       1,760,544          $       1,687,400

    Budgetary Financing Sources                               4,197,792                 1,585,180
    Other Financing Sources                                     (29,127)                  151,863
        Total Financing Sources                               4,168,665                 1,737,043
    Net Cost of Operations                                   (4,308,822)               (1,663,899)
    Net Change                                                 (140,157)                   73,144
    Net Position End of Period                       $        1,620,387         $       1,760,544


                       These notes are an integral part of the financial statements.


                                                         - 50 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization

                                                                         Less: Earned        Net Cost of
                                                       Gross Cost          Revenue           Operations
For the Fiscal Year Ended September 30, 2012
   Goal 2:   Payments to Third Parties                  $3,003,499       $               -   $   3,003,499
             Asset Management Expenses                      64,051                       -          64,051
             Special Contract Services                     145,648                  10,585         135,063
             ADP Equipment                                   9,062                       -           9,062
             Forfeiture Case Prosecution                    48,859                       -          48,859
             Forfeiture Training and Printing                6,719                       -           6,719
             Other Program Management                       56,204                       -          56,204
             Awards for Information                         27,180                       -          27,180
             Purchase of Evidence                            9,068                       -           9,068
             Equipping Conveyances                             381                       -             381
             Contracts to Identify Assets                   29,777                       -          29,777
             Investigative Cost Leading to Seizure          77,663                       -          77,663
             Equitable Sharing                             681,019                       -         681,019
             Joint Law Enforcement Operations              160,277                       -         160,277
                Net Cost of Operations                  $4,319,407       $          10,585   $   4,308,822
   Goal 2:   Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law



                                                                         Less: Earned        Net Cost of
                                                       Gross Cost          Revenue           Operations
For the Fiscal Year Ended September 30, 2011
   Goal 2:   Payments to Third Parties                 $ 639,253         $               -   $     639,253
             Asset Management Expenses                     47,630                        -          47,630
             Special Contract Services                    116,746                    9,513         107,233
             ADP Equipment                                  7,425                        -           7,425
             Forfeiture Case Prosecution                   53,530                        -          53,530
             Forfeiture Training and Printing              12,725                        -          12,725
             Other Program Management                      35,014                        -          35,014
             Awards for Information                        28,218                        -          28,218
             Purchase of Evidence                           9,078                        -           9,078
             Equipping Conveyances                            147                        -             147
             Contracts to Identify Assets                  31,874                        -          31,874
             Investigative Cost Leading to Seizure         74,225                        -          74,225
             Equitable Sharing                            440,063                        -         440,063
             Joint Law Enforcement Operations             177,484                        -         177,484
                Net Cost of Operations                 $1,673,412        $           9,513   $   1,663,899

   Goal 2:   Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law


                    These notes are an integral part of the financial statements.


                                                     - 51 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the AFF from a
providing entity that is not part of the Department of Justice. In accordance with SFFAS No. 30,
Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Concepts
and Standards for the Federal Government, the material imputed inter-departmental financing
sources recognized by the AFF are the cost of benefits for the Federal Employees Health Benefits
Program (FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI), the Federal
Pension plans that are paid by other Federal entities, and any un-reimbursed payments made from
the Treasury Judgment Fund on behalf of the AFF. The Treasury Judgment Fund was established
by the Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and
settlement agreements negotiated by the Department on behalf of agencies, as well as certain
types of administrative awards. Interpretation of Federal Financial Accounting Standards
Interpretation No. 2, Accounting for Treasury Judgment Fund Transactions, requires agencies to
recognize liabilities and expenses when unfavorable litigation outcomes are probable and the
amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’
active years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate
cost. OPM actuaries calculate the value of pension benefits expected to be paid in the future, and
then determine the total funds to be contributed by and for covered employees, such that the
amount calculated would be sufficient to fund the projected pension benefits. For employees
covered by Civil Service Retirement System, the cost factors are 29.8% of basic pay. For
employees covered by Federal Employees Retirement System, the cost factors are 13.7% of basic
pay.

The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, the cost of other retirement benefits, which included health
and life insurance that are paid by other Federal entities, must also be recorded.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, are the unreimbursed portion
of the full costs of goods and services received by the AFF from another component in the
Department. The AFF does not have any imputed intra-departmental financing sources that meet
the reporting requirements of the Department.




                    These notes are an integral part of the financial statements.


                                                    - 52 -
                                                     FY 2012 AFF/SADF Annual Financial Statements
                                       U.S. Department of Justice
                                   Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others (continued)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                      2012                     2011
Imputed Inter-Departmental Financing
   Health Insurance                                            $              363         $            398
   Life Insurance                                                               2                        2
   Pension                                                                    171                      202
      Total Imputed Inter-Departmental                         $              536         $            602



Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                      Total
                                                       Direct              Reimbursable            Obligations
                                                      Obligations           Obligations             Incurred
For the Fiscal Year Ended September 30, 2012
   Obligations Apportioned Under
      Category A                                 $           19,636    $                 -     $           19,636
      Category B                                          4,498,148                 10,585              4,508,733
   Total                                         $        4,517,784    $            10,585     $        4,528,369


For the Fiscal Year Ended September 30, 2011
   Obligations Apportioned Under
      Category A                                 $           16,425    $                   -   $           16,425
      Category B                                          1,599,537                    4,244            1,603,781
   Total                                         $        1,615,962    $               4,244   $        1,620,206


Apportionment categories are determined in accordance with the guidance provided in Part 4
Instructions on Budget Execution of OMB Circular No. A-11, Preparation, Submission, and
Execution of the Budget. Category A represents resources apportioned for calendar quarters.
Category B represents resources apportioned for other periods; for activities, projects, and
objectives; or for a combination thereof.




                       These notes are an integral part of the financial statements.


                                                        - 53 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDOs) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.

As of September 30, 2012 and 2011
                                                                2012                  2011

          UDO Obligations Unpaid                             $ 181,349              $ 173,007
          UDO Obligations Prepaid/Advanced                       2,340                  1,774
             Total UDOs                                      $ 183,689              $ 174,781


Permanent Indefinite Appropriations:

28 U.S.C. § 524(c)(1) authorizes the Attorney General to use AFF receipts to pay program
operations expenses, equitable sharing to state and local law enforcement agencies who assist in
forfeiture cases, and lien holders. This permanent indefinite authority is open-ended as to both its
period of availability (amount of time the agency has to spend the funds) and its amount.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation, unless otherwise restricted. Excess unobligated
balances identified at the end of a fiscal year may be declared a “Super Surplus” balance. Super
Surplus balances may be allocated at the discretion of the Attorney General for “…any Federal
law enforcement, litigative/prosecutive, and correctional activities, or any other authorized
purpose of the DOJ” pursuant to 28 U.S.C. § 524(c)(8)(E).




                    These notes are an integral part of the financial statements.


                                                    - 54 -
                                                       FY 2012 AFF/SADF Annual Financial Statements
                                            U.S. Department of Justice
                                        Notes to the Financial Statements
                                     (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. Budget of the United States Government:

The reconciliation as of September 30, 2012 is not presented because the submission of the
Budget of the United States (Budget) for FY 2014, which presents the execution of the FY 2012
Budget, occurs after publication of these financial statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will
be available in early February 2013.


For the Fiscal Year Ended September 30, 2011
(Dollars in Millions)
                                                                                        Distributed
                                                        Budgetary      Obligations      Offsetting         Net
                                                        Resources       Incurred         Receipts         Outlays
Statement of Budgetary Resources (SBR)                $        2,709 $          1,620 $             5 $          1,411
Funds not Reported in Budget of the U.S.
   Forfeiture Activity                                            (37)             -               -                -
   OCDETF Adjustments                                             (22)             5               -                -
   Special and Trust Funds Receipts                                 -              -               -                5

Other                                                               -              -               -               (1)

Budget of the United States Government                $         2,650 $         1,625 $           5 $           1,415



Funds not reported in the Budget - Forfeiture Activity, primarily represent forfeiture activities
that are unavailable until the authority is granted in the subsequent year. These activities
represent real estate sales and accrued revenue. Other differences represent financial statement
adjustments, timing differences, and other immaterial differences between amounts reported in
the AFF’s SBR and the Budget of the United States.




                           These notes are an integral part of the financial statements.


                                                           - 55 -
                                                   FY 2012 AFF/SADF Annual Financial Statements
                                      U.S. Department of Justice
                                  Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus and Official Use Transfers

The AFF’s statute, 28 U.S.C. §524(c)(8)(E), provides the Attorney General with the authority to
use the AFF’s excess unobligated balance remaining at the end of a FY without fiscal year
limitation for any Federal law enforcement, litigative/prosecutive, and correctional activities, or
any other authorized purpose of the Department of Justice. The excess unobligated balance
consists of the AFF’s unobligated balance at the end of the FY after the Program’s operational
needs for the subsequent year are reserved. The excess unobligated balance is historically known
as “Super Surplus.”

The Attorney General approved the following allocations of Super Surplus during FYs 2012 and
2011. The most recent Super Surplus declarations remaining are in FY 2005, 2008 and 2012.


For the Fiscal Years Ended September 30, 2012 and 2011

                                                                            2012               2011
Civil Division                                                        $             338    $          338
Executive Office for U.S. Attorneys                                                  30                32
Bureau of Prisons                                                               151,000                 ­
Community Oriented Policing Services                                             (6,282)                ­
   Total DOJ Allocations                                              $         145,086    $          370

2005 Super Surplus                                                    $             368    $          370
2008 Super Surplus                                                               (6,282)                ­
2012 Super Surplus                                                              151,000                 ­
   Total Allocations                                                  $         145,086    $          370




                       These notes are an integral part of the financial statements.


                                                       - 56 -
                                                FY 2012 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus and Official Use Transfers (continued)

Since Super Surplus authority is not the result of an exchange of goods or services between the
AFF and the agency receiving the funding, the AFF records the allocation of Super Surplus funds
to the agencies as transfers out. The agencies receiving Super Surplus authority record transfers
in. As of September 30, 2012 and 2011, $145,086 and $27 was transferred out respectively. The
AFF also records a liability for the amount of any Super Surplus provided in the current or prior
fiscal years that has not yet been transferred out. As of September 30, 2012 and 2011, Super
Surplus liabilities totaled $70 and $70, respectively.

Transfers-out of Forfeited Property for Official Use. Property was distributed pursuant to the
Attorney General’s authority to share forfeiture revenues with agencies that participated in the
forfeiture that generated the property, and pursuant to the DOJ’s authority to place forfeited
property into official use by the Government. As of September 30, 2012 and 2011, transfers-out
of forfeited property for official use totaled $5,190 and $6,091, respectively.


Note 19. Nonexchange Revenues

Nonexchange revenue consists of income from the investment of the AFF and SADF in U.S.
Treasury securities. The investment accrual revenue represents the amortization of the discount
on marketable bills using the straight-line basis.

For the Fiscal Years Ended September 30, 2012 and 2011

                                                             2012                   2011

Income from AFF investments                           $             1,685       $          2,369
Income from SADF investments                                        1,561                  2,492
Amortization of AFF/SADF discount/(premium)                            81                   (265)
   Total Investment Income                            $             3,327       $          4,596




                    These notes are an integral part of the financial statements.


                                                    - 57 -
                                                  FY 2012 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 20. Donations and Forfeitures

Forfeiture income includes forfeited cash, sales of forfeited property, penalties in lieu of
forfeiture, recovery of returned asset management costs, judgment collections, and other
miscellaneous income. For the Fiscal Years ended September 30, 2012 and 2011, net forfeiture
income attributable to the AFF totaled $4,314,710 and $1,737,965 respectively, after the
following payments and returns to agencies participating in seizures that led to forfeiture.


                                                                        2012              2011

Payments to individuals or organizations for proceeds from        $        14,654     $      2,130
assets forfeited and deposited into the AFF and
subsequently returned to them through a settlement
agreement or by court order.
Return of forfeiture income to the TFF for its participation              107,521           94,587
in seizures that led to forfeiture.

Return of forfeiture income to the U.S. Postal Service for                 54,948           21,645
its participation in seizures that led to forfeiture.

Return of forfeiture income to other Federal agencies for                      725               504
their participation in seizures that led to forfeiture.

Total Return of Forfeiture Income                                 $       177,848     $    118,866




                      These notes are an integral part of the financial statements.


                                                      - 58 -
                                                  FY 2012 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                 2012               2011
Resources Used to Finance Activities
    Budgetary Resources Obligated
       Obligations Incurred                                                  $   4,528,369      $   1,620,206
       Less: Spending Authority from Offsetting Collections and
              Recoveries                                                           101,213             95,978
       Obligations Net of Offsetting Collections and Recoveries                  4,427,156          1,524,228
       Less: Offsetting Receipts                                                     3,327              4,596
       Net Obligations                                                           4,423,829          1,519,632

    Other Resources
        Donations and Forfeitures of Property                                      120,245            157,381
        Transfers-In/Out Without Reimbursement                                    (149,908)            (6,120)
        Imputed Financing from Cost Absorbed by Others (Note 16)                       536                602
        Net Other Resources Used to Finance Activities                             (29,127)           151,863
Total Resources Used to Finance Activities                                       4,394,702          1,671,495

Resources Used to Finance Items not Part of the Net Cost of
   Operations
    Change in Budgetary Resources Obligated for Goods, Services,
        and Benefits Ordered but not Yet Provided                                     (6,075)        111,312
    Budgetary Offsetting Collections and Receipts That do not
        Affect Net Cost of Operations                                             (116,918)          (152,785)
    Other Resources or Adjustments to Net Obligated Resources
        That do not Affect Net Cost of Operations                                      5,230            6,091
        Resources That Finance the Acquisition of Assets                              (1,188)               -
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                 (118,951)           (35,382)
Total Resources Used to Finance the Net Cost of Operations                       4,275,751          1,636,113




                      These notes are an integral part of the financial statements.


                                                      - 59 -
                                                  FY 2012 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)



Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

                                                                                 2012              2011
Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
        in Future Periods (Note 22)                                          $           77    $          168
    Components not Requiring or Generating Resources
        Depreciation and Amortization                                                    134          1,493
        Other                                                                         32,860         26,125
Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                      $        33,071   $     27,786

Net Cost of Operations                                                       $   4,308,822     $   1,663,899




                      These notes are an integral part of the financial statements.


                                                      - 60 -
                                                     FY 2012 AFF/SADF Annual Financial Statements
                                       U.S. Department of Justice
                                   Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)


Note 22. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating Resources
in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $77 and $168
on September 30, 2012 and 2011, respectively, are discussed in Note 10, Liabilities not Covered
by Budgetary Resources. Decreases in these liabilities result from current year budgetary
resources that were used to fund expenses recognized in prior periods. Increases in these
liabilities represent unfunded expenses that were recognized in the current period. These
increases, along with the change in the portion of exchange revenue receivables from the public,
which are not considered budgetary resources until collected, represent components of current
period net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:


For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                   2012            2011
Components of Net Cost of Operations That Will Require or Generate
     Resources in Future Periods
       Increase in Accrued Annual and Compensatory Leave Liabilities                      77              168
              Total Resources that Fund Expenses Recognized in Prior Periods   $          77   $          168




                        These notes are an integral part of the financial statements.


                                                         - 61 -
This page intentionally left blank.




               - 62 -
Other Accompanying Information

         Unaudited




         - 63 -
This page intentionally left blank.




               - 64 -
                                  U.S. Department of Justice
                Assets Forfeiture Fund and Seized Assets Deposit Fund (AFF/SADF)
                               Combined Schedule of Spending
                        For the Fiscal Year Ended September 30, 2012
                                    (Dollars in Thousands)

                                                                           Total
	
                                                                          FY 2012
	
What Money is Available to Spend?
Total Resources                                                      $        5,290,378
Less: Amount Available but Not Agreed to be Spent                               639,541
Less: Amount Not Available to be Spent                                          122,468
Total Amounts Agreed to be Spent                                     $        4,528,369



How was the Money Spent?
Personnel Compensation and Benefits
               11xx      Personnel Compensation                      $             9,180
               12xx      Personnel Benefits                                        2,669

Other Program Related Expenses
               21xx      Travel & Transportation of Persons          $            6,754
               22xx      Transportation of Things                                 2,004
               23xx      Rent, Communications, and Utilities                     28,216
               24xx      Printing and Reproduction                                5,606
               25xx      Other Services                                       2,465,546
               26xx      Supplies and Materials                                   7,622
               31xx      Equipment/IT Software                                    8,362
               32xx      Leasehold Improvements                                 151,077
               42xx      Insurance Claims and Indemnities                            67
Total Spending                                                       $        2,687,103
Amounts Remaining to be Spent                                        $        1,841,266
Total Amounts Agreed to be Spent                                     $        4,528,369




                                             - 65 -
